U.S. Department of the Interior
Office of Inspector General




             AUDIT REPORT


    FOLLOWUP OF RECOMMENDATIONS
       CONCERNING UTILITY RATES
            IMPOSED BY THE
        NATIONAL PARK SERVICE

               REPORT NO. 98-I-406
                   APRIL 1998
                                                                            C-IN-NPS-00 l-97.


             United States Department                        of the Interior
                            OFFICE OF INSPECTOR GENERAL
                                    Washington, D.C. 20240

                                                                APR I5 I998


                                  AUDIT REPORT

Memorandum

To:         Assistant Secretary for Fish and Wildlife and Parks

From:       Robert J. Williams                   &!L.;w
            Acting Inspector General

Subject:    Audit Report on Followup of Recommendations Concerning               Utility Rates
            Imposed by the National Park Service (No. 98-I-406)

                                 INTRODUCTION

This report presents the results of our followup review of recommendations contained in our
January 1991 audit report “Utility Rates Imposed by the National Park Service”
(No. 91-I-333). The objective of the followup review was to determine whether the National
Park Service had satisfactorily implemented the recommendations in the prior report and
whether any new recommendations were warranted.

BACKGROUND

The Park Service often provides utility services, including water, electricity, and waste
removal, to non-Governmental users, such as concessioners, inholders, and state agencies.
In some park units, the Park Service constructs and operates its own utility systems, while
in other park units, the Park Service purchases utility services from public utility companies.
Federal law and regulations require the Park Service to obtain reimbursement for the cost of
providing these services. Specifically, Title V of the Independent Offices Appropriations Act
of 1952 (the User Fee Statute) authorizes Federal agencies to charge fees for services or
benefits provided to beneficiaries. Office of Management and Budget Circular A-25,“User
Charges,” provides guidance to Federal agencies on implementing the User Fee Statute and
requires agencies to establish internal controls over cash collections in accordance with
Office of Management and Budget Circular A- 123,“Intemal Control Systems.” Furthermore,
the Department of the Interior Manual, Part 346, “Cost Recovery,” requires (unless directed
otherwise by statute or other authority) that a fee be established to recover an agency’s costs
for services such as utilities which provide special benefits or privileges to an identifiable
non-Governmental recipient.
Park Service guidance and policies on utility cost recovery from non-Governmental users are
contained in its June 20, 1985, Special Directive 83-2, “Rates for NPS-Produced Utilities.”
The Directive provides for the Park Service to recover from non-Governmental users its
capital investment costs for constructing or expanding utility systems and for performing
major rehabilitation or replacement of existing systems through cost sharing or other means.
The Directive also provides for the recovery of utility system operational costs through the
implementation of utility rates that are based on the higher of actual operational costs or
comparable rates (rates for similar services in the same geographic location).

SCOPE OF AUDIT

To accomplish our audit objective, we reviewed construction data on capital investment costs
at the Park Service’s Denver Service Center, operational cost work sheets at specific parks,
and reports from the Park Service’s maintenance and financial management systems. We did
not review source documents, such as individual time sheets and invoices, to verify the
accuracy or completeness of the reported costs. We also reviewed the operating cost records
and cash management procedures at the 4 parks we visited and sent questionnaires to
15 parks (including the 4 parks visited) at which, according to Service Center records, utility
system construction had taken place since our prior audit. (Sites visited or contacted are in
Appendix 2.) The responses to the questionnaires indicated that 11 of the 15 parks had each
spent at least $1 million of appropriated funds on utility systems which would serve
non-Governmental users and which were completed or almost completed at the time of our
current review. In addition, we contacted officials at public utility companies to determine
comparable rates and the companies’ methodologies for recovering capital investment costs.

Our audit was made, as applicable, in accordance with the “Government Auditing
Standards,” issued by the Comptroller General of the United States. Accordingly, we
included such tests of records and other auditing procedures that were considered necessary
under the circumstances. We also reviewed the Department’s Fiscal Year 1996 Annual
Report on Accountability, which includes information required by the Federal Managers’
Financial Integrity Act of 1982, and the Park Service’s annual assurance statement to
determine whether any reported weaknesses were within the objective and scope of our
review. Neither the Accountability Report nor the Park Service’s assurance statement
reported control weaknesses in the Park Service’s recovery of utility system costs. Because
of the limited scope of our review, we did not evaluate the Park Service’s system of
management controls related to cost recovery for utility services.

PRIOR AUDIT COVERAGE

The General Accounting O&e has not issued any audit reports during the past 7 years that
addressed the Park Service’s recovery of utility system costs. However, the Office of
Inspector General issued the report “Utility Rates Imposed by the National Park Service” in
January 1991, which is the subject of this followup report. The January 1991 report stated
that the Park Service was not recovering the cost of capital investments for utility systems
that benefited non-Governmental users and was not fully recovering operational costs. We
also found that procedures for the separation of duties for the billing and collection functions

                                               2
and for the timely deposit of receipts were not enforced in accordance with the Park Service
Operations and Evaluation Manual. The report recommended that the Park Service (1) revise
Special Directive 83-2 to include specific guidelines for recovering capital investments in
utility systems from non-Governmental users, (2) ensure compliance with the guidelines,
(3) ensure that the park units were fully recovering operational costs, (4) provide training to
park personnel who are responsible for establishing utility rates, and (5) ensure that internal
controls over the collection and deposit of receipts for utility services were in compliance
with prescribed procedures. The Park Service, in its December 5, 1990, response to the draft
report, concurred with all of the report’s recommendations. However, in an October 6,1995,
memorandum to the Director, Offtce of Financial Management, regarding implementation
of those recommendations, the Park Service stated that recommendations regarding the
recovery of capital investments were “rendered obsolete” because the Park Service had
eliminated possessor-y interest Corn concession contracts. Based on that memorandum, the
Office of Financial Management considered all of the recommendations implemented. We
disagree that the recommendations are obsolete based on the action taken, as discussed in the
Results of Audit section of this report.

                              RESULTS          OF AUDIT

We found that none of the five recommendations made in our January 199 1 report were fully
implemented. Specifically, the National Park Service (1) did not establish procedures or
issue specific guidance which ensured that the parks fully recovered their operating and
investment costs in utility systems from concessioners and other non-Governmental users,
(2) did not provide adequate oversight of the parks’ cost recovery efforts, (3) did not ensure
that park personnel were provided training in developing utility rates, and (4) did not ensure
that all the parks were complying with prescribed standards pertaining to the separation of
duties for the billing and collection functions and to the timeliness of deposits. As a result,
from January 1991 through August 1997, the Park Service did not seek recovery of costs
totaling about $6.3 million from non-Governmental users and may not recover additional
capital investment costs of as much as $3 1.3 million unless it revises its procedures.

Prior Audit Report Recommendations

Recommendation A. 1. Revise Special Directive 83-2 to include specific guidelines for
recovering canital investments in utilitv svstems that are identifiable to non-Government
users. Anv exceptions to full recovery of such capital investments should be properly
authorized and documented,

Our prior audit report stated that, although Special Directive 83-2 authorized the parks to
pursue cost sharing or other means of capital cost recovery, the Directive did not provide
specific guidance on how cost recovery should be implemented. The report also stated that
even when guidance was requested by park officials, it was not provided by Park Service
headquarters officials. For example, according to the report, in December 1989, the Regional
Director, Western Region, requested that Park Service headquarters provide specific
guidance on whether cost recovery was mandatory, what approach should be used to recover


                                               3
costs, and what types of costs were considered capital costs. However, the Region did not
receive a response to its request. The report further stated that officials at the Denver Service
Center, which is responsible for planning and financing new or expanded utility systems,
were not aware of the requirement to pursue recovery of capital investment costs. In its
response to the report, the Park Service agreed that non-Governmental users should pay a
share of capital investment costs “to the extent that it is economically feasible” and said that
it would document and justify the basis for any instances of less than full cost recovery.

In an October 6, 1995, memorandum to the Director, Office of Financial Management,
regarding the status of implementation of the recommendations, the Park Service’s Chief of
the Accountability and Audit Team stated that the Park Service had taken all necessary
actions to implement the outstanding recommendations. The memorandum further stated
that Recommendations A. 1 and A.2 had been “rendered obsolete” because the Park Service
“had eliminated possessory interest from concession contracts so that capital investment is
restricted to Government assets.”

We do not consider the elimination of possessory interest from concession contracts to be
relevant to the Park Service’s recovery of its utility system investment costs from benefiting
non-Governmental users. Accordingly, during our followup review, we asked the Park
Service to explain how the elimination of possessory interest affected the Park Service’s
ability to recover utility system investment costs from benefiting non-Governmental users.
Park Service officials did not provide a response to our inquiry. In our opinion, the
elimination of concessioners’ possessory interest has no bearing on the Park Service’s
recovery of utility system investment costs that were financed by the Government. In
addition, at the parks visited, we did not identify any provisions in the two concessions
contracts reviewed that would restrict the recovery of utility system capital investment costs.
Consequently, we do not agree that Recommendations A. 1 and A.2 are obsolete.

Despite the October 1995 memorandum, Park Service officials, during our followup review,
stated that Park Service policy is to recover investments in utility systems when feasible.
However, we found that the Park Service had not pursued the recovery of these costs, and
no documentation was provided to show that the Park Service had analyzed the
non-Governmental users’ ability to pay these costs and/or had authorized an exemption to
full cost recovery. Specifically, since January 1991, the Park Service has spent appropriated
funds totaling $20,05 1,248 to construct utility systems at three of the four parks visited, of
which $12,321,425 was subject to recovery from non-Governmental users. At the fourth
park, a $1,526,462 construction project, which was not completed at the time of our review,
had reimbursable costs of $870,083. However, the Park Service has not pursued recovery
of these costs, which totaled $13,191,508 ($12,321,425 and $870,083) at the four parks
visited, including $2,490,4 14 that was subject to recovery in fiscal years 1991 through 1997.
The $ IO,70 1,094 balance could be recovered in future periods based on a 30-year project life
calculated from the date of completion. Specifically:

        - Grand Canyon National Park had not pursued the recovery of costs for constructing
a water treatment facility and an electrical distribution system. The total cost of the systems
was $10,746,849. Based on our review of consumption data, we determined that 86 percent

                                               4
($9,242,290) was attributable to use by 26 non-Governmental users. We also determined
that investment costs of $2,053,823 were subject to recovery but were not billed and
collected from concessioners for fiscal years 1991 through 1997.

        - Mesa Verde National Park had not pursued the recovery of costs for constructing
a water treatment plant and pipelines. The total cost of the systems was $6,901,574. Based
on our review of consumption data, we determined that the concessioner’s use was
38 percent ($2,622,598). We also determined that investment costs of $360,502 were subject
to recovery but were not billed and collected from the concessioner for fiscal years 1991
through 1997.

         - Lake Mead National Recreation Area had not pursued the recovery of costs for
constructing a sewage lagoon. The cost of the lagoon was $2,402,825, of which the
concessioner’s use was 19 percent ($456,537) based on consumption data. We determined
that investment costs of $76,089 were subject to recovery but were not billed and collected
from the concessioner for fiscal years 1993 through 1997. In addition, we found that the
Recreation Area plans to spend $11.5 million for water treatment and wastewater facilities
in fiscal years 1998 and 1999 and that it has not formalized any commitment for repayment
of these costs from the concessioner.

        - Glacier National Park had obligated $1,526,462 for rehabilitation of the Sperry
Chalet utility system. We estimated that the concessioner’s use would be 57 percent
($870,083). The Park Service plans to complete this project in 1998.

In addition to the results of our reviews at the four parks visited (having recoverable capital
investment costs of about $13.2 million, of which $2.5 million was subject to recovery in
fiscal years 1991 through 1997), we identified additional capital investment costs of
$22,879,158 at 7 of the 11 parks contacted. Based on responses to our questionnaire, we
determined that $2,294,710 was subject to recovery in fiscal years 1991 through 1997.
However, none of these seven parks had pursued recovery of these costs. In total, we
estimated that capital investment costs of $36 million were recoverable, of which
$4.8 million was subject to recovery in fiscal years 1991 through 1997.

Based on discussions with Park officials, we concluded that costs were not recovered
because Park personnel did not understand how to implement the provisions of Special
Directive 83-2 regarding recovery through “cost sharing or other means.” Consequently, we
consider Recommendation A. 1 not implemented.

Recommendation A.2. Provide sufficient oversight of all Park Service areas to ensure that
capital investments in utilitv svstems that are Identifiable to non-Government users are fully
recovered or that anv exceptions to full recovery are properly authorized and documented..

Our prior audit found that the Park Service did not ensure that the parks pursued cost sharing
or other means of recovering capital investment costs. As a result, we estimated that unless
the Park Service revised its guidelines and provided sufficient oversight of individual parks,



                                               5
the Park Service would not recover utility system investment costs of $32.5 million for fiscal
year 1990 and beyond.

Our followup review found that the Park Service did not provide sufficient oversight of the
parks’ cost recovery efforts. For example, the Park Service, in its response to the prior audit
report, stated that it will “delegate an individual in the Washington Office the responsibility
for the Utility Fee Program.” However, the various individuals whom the Park Service
identified as having responsibility for oversight told us that they were not aware that they had
been delegated such responsibility and that they had not performed any oversight reviews.
As such, we consider Recommendation A.2 not implemented.

Recommendation B. 1. Ensure that all Park Service areas comply with Special Directive 83-2.
At a minimum. this action should include assiPnina snecific individuals within the regional
offrces the resnonsibilitv of ensurine that the areas comnlv with the Directive.

Our prior audit found that the Park,Service did not ensure that its field sites were complying
with Special Directive 83-2 in formulating utility rates. As a result, we estimated that the
Park Service did not recover operational costs of at least $2.6 million for utility services
provided to non-Governmental users during fiscal years 1986 through 1989.

Our followup review found that the Park Service issued a November 27,1995, memorandum
designating 10 regional officials as Cost Recovery Liaison Officers. However, we found that
4 of the 10 offtcials were unaware of their designations or responsibilities, 4 had retired
before the memorandum was issued (2 of these individuals had retired 3 1 and 16 months,
respectively, before the memorandum was issued), and 2 officials had retired after the
memorandum was issued. The regions did not reassign the responsibilities to other
employees. As such, we concluded that the Park Service did not ensure that the field offtces
were ensuring compliance with Special Directive 83-2, which resulted in estimated
unrecovered operational costs of $1,537,018 in fiscal years 1995 through 1997 at the four
parks visited. For example:

         - Grand Canyon National Park had not recovered operational costs of $55 1,927 for
fiscal year 1995 because the Park offtcial responsible for establishing the utility rates at the
time mistakenly believed that rate increases were limited to 15 percent annually. The fiscal
year 1995 water rate was established at $6.85 per thousand gallons despite information which
indicated that the rate should have been $8.46 per thousand gallons. This official no longer
works at the Park, and the rates for fiscal years 1996 and 1997 have been reestablished
without this limitation. However, the 1996 rate ($9.09 per thousand gallons) did not include
salary costs of $80,000 for maintenance support personnel, such as the Chief of Maintenance,
the Maintenance Management Assistant, the Auto Shop supervisor, and maintenance clerks,
that should have been reimbursed annually for fiscal years 1995 through 1997.

        - Lake Mead National Recreation Area had not recovered operational costs of
$384,000 for fiscal year 1997 because Recreation Area personnel excluded cyclic
maintenance costs from the rate calculations. Since Special Directive 83-2 does not specify
the costs that should be included as operational costs, Recreation Area personnel indicated

                                               6
that there was “some confusion” as to what costs they should include in the rate computation.
In addition, we identified maintenance supervisory personnel costs of $55,000 that were not
included in the rates for fiscal years 1995 and 1997. The Recreation Area was not able to
provide support for fiscal year 1996 costs because no rate work sheets were prepared. As
such, we were unable to determine whether these personnel costs were excluded for that
fiscal year.

          - Mesa Verde National Park had not recovered operational costs totaling $60,98 1 for
fiscal years 1995 through 1997 because the Park used the 1995 rate (based on 1994 actual
costs) for 1996 and 1997. Therefore, the Park was not recovering cost increases attributable
to inflation, such as cost of living increases for personnel, that had occurred since May 1994.
In addition, the Park was recovering only 1 percent of its maintenance supervisory costs,
even though Park offtcials said that a larger percentage should be recovered. Mesa Verde
was the only park visited that included any maintenance supervisory costs in its rate
calculation.

         - Glacier National Park had not recovered estimated operational costs of $190,110
for fiscal year 1997 because utility charges were based on comparable rates that did not fully
compensate the Park for actual maintenance costs incurred. Park maintenance personnel
stated that they were unable to fully identify actual utility system costs in the accounting
records or to estimate actual costs accurately. As a result, according to Park personnel, the
Park established comparable rates based on local public utility company rates. We estimated
the Park’s reimbursable maintenance costs by determining the amount of maintenance costs
attributable to utility systems, using data from the Park Service’s Federal Financial System,
and multiplying this amount by the percentage of non-Governmental use. The resultant
amount was $190,110 higher than the amounts recovered, which were based on the
comparable rates.

Based on these examples, we concluded that the Park Service had not properly delegated
oversight responsibilities to specific individuals or provided sufficient oversight to ensure
compliance with the Special Directive, which resulted in the parks not fully recovering their
operational costs. Accordingly, we consider Recommendation B. 1 not implemented.

Recommendation B.2. Ensure that all pertinent personnel at Park Service areas which
provide utilitv services to non-Governmental users are trained and/or nrovided adeauate
guidance to formulate utilitv rates in accordance with the Park Service Special
Directive 83-2.

Our prior audit report stated that the Park Service had not adequately trained and/or provided
sufficient guidance to individuals who were responsible for formulating the utility rates. In
its response to the prior report, the Park Service stated that training needs would be reviewed
and a specific plan would be developed. The Park Service further stated that it would
suggest joint training among regions to establish uniform application of Park Service policies
and procedures and to promote the cost effectiveness of training.




                                               7
Our followup review found that the actions outlined in the response had not been taken to
provide training or guidance in the development of utility rates. Specifically, the employees
responsible for developing utility rates at the 11 parks that had new utility systems which
served non-Governmental users stated that they had not been provided training in the
development of the rates or on the Special Directive and that, as discussed under
Recommendations A. 1 and B. 1, sufftcient guidance had not been provided by Park Service
headquarters. Therefore, we consider Recommendation B.2 not implemented.

Recommendation C.l. Ensure that all Park Service areas providing utility services to
non-Governmental users review their internal controls applicable to receints and deoosits and
ensure that such controls are in compl&nce with nrescribed standards. The areas should be
reauired to nrovide written verification of comnliance with prescribed standards to an
organizational annointee designated bv the Director,

Our prior audit found that the Park Service was not ensuring that all park units were
complying with prescribed standards pertaining to the separation of duties for the billing and
collection tunctions and to the timeliness of deposits, as required by Office of Management
and Budget Circular A-l 23, “Internal Controls.” Specifically, although the Park Service’s
Operations Evaluation Manual provided adequate guidelines for the separation of duties for
the billing and collection functions, park personnel were not complying with the guidelines.
As a result, the Park Service could not provide reasonable assurance that Government
resources were protected from fraud, mismanagement, or misappropriation. In its response
to the prior report, the Park Service stated that it would require park managers to evaluate the
adequacy of their collection processes and that Servicewide compliance would be determined
by the individual delegated responsibility for the utility program (see Recommendation B. 1).

Our followup review found that there was not sufficient separation of duties at two of the
four parks visited and that deposits were not made timely at three of the four parks visited
as follows:

         - At Mesa Verde National Park, we reviewed seven utility payments that exceeded
$5,000 during fiscal years 1994 through 1996 to determine whether the Park was complying
with Section IIB of guidance entitled “National Park Service Collection Procedures,” which
requires that deposits be made when the accumulated amount reaches $5,000. We found that
six of the seven receipts were deposited from 1 to 17 days late. For example, one receipt for
$20,760 on August 13, 1996, was not deposited until August 30, 1996, or 17 days after it
was received. In addition, we found that the same individual who prepared the bills for
collection also received payments and made deposits.

       - At Glacier National Park, the same individual who prepared the bills also received
the payments and deposited the receipts.

         - At Grand Canyon National Park, there were undeposited receipts totaling $130,470
at the time of our visit on May 29, 1997. The receipts totaled more than $5,000 as of May 8,
1997; therefore, the deposit was overdue by 21 days.



                                               8
        - At Lake Mead National Recreation Area, we reviewed three deposits made on
July 14, 1997, and found that one deposit for $28,449 contained a $22,849 receipt from
July 2, 1997, which was deposited 12 days late.

Based on the cited examples, we consider Recommendation         C. 1 not implemented.

Other Issues

During our review, we obtained additional information that we believe the Park Service
should consider in revising its cost recovery procedures. Specifically, we contacted five
public utility companies and found that they recovered their capital investments through the
rate process, which Special Directive 83-2 does not allow. In our opinion, the recovery of
capital investment costs through the rate process rather than through the cost-sharing process,
for which no guidance has been issued, would be easier for the parks to implement and
would be consistent with utility company practices. Accordingly, we believe that the Park
Service should revise the Special Directive to allow the parks to recover capital investment
costs through the monthly billing process.

 We also found that the Park Service had not provided sufficient guidance regarding the
retention and use of utility cost reimbursements. As a result, officials at the four parks we
visited stated that they were unsure of how the funds could be used and that they were
returning all unspent funds in their utility reimbursement account to the U.S. Treasury at the
end of each fiscal year. Park Service budget officials, who cited no regulations to support
their position, said that the parks may retain and use such funds, provided that an adequate
justification is prepared to support the need to carry over the funds to a subsequent year. To
resolve any ambiguity regarding the proper retention and use of utility reimbursements, we
believe that the Park Service should issue guidance, in coordination with the Solicitor’s
Office, to the parks regarding the retention of accumulated reimbursements of both
operational and capital investment costs and ensure that such guidance is in accordance with
applicable laws and regulations.

Recommendations

We recommend that the Director, National Park Service:

         1. Revise Special Directive 83-2 to include specific guidelines for recovering capital
investments in utility systems that are identifiable to non-Governmental users and to allow
for the recovery of these investments through the utility rate process. Any exceptions to full
recovery of such capital investments should be properly authorized and documented.

        2. Establish an oversight process to ensure that capital investments in utility systems
and operational costs which are identifiable to non-Governmental users are fully recovered
and that any exceptions to full recovery are properly authorized and documented.




                                               9
        3. Issue guidance for the recovery of operational costs of utility systems. The
guidance should include but not be limited to the various types of direct and indirect park
maintenance costs that are to be included in rate computations and procedures for developing
the rates.

        4. Ensure that adequate training and/or guidance is provided to personnel who are
responsible for formulating utility rates.

         5. Ensure that park units which provide utility services to non-Governmental users
have adequate internal controls relating to the separation of duties for the billing and
collection functions and for the timely deposit of receipts.

       6. Issue guidance to all park units on the procedures for retaining and spending utility
system cost reimbursements and ensure that such guidance is in accordance with applicable
laws and regulations.

National Park Service Response and Office of Inspector General Reply

In the March 26, 1998, response (Appendix 3) to our draft report from the Director, National
Park Service, the Park Service generally concurred with the report’s conclusions. Based on
the response, we consider Recommendations 1 through 5 resolved but not implemented and
Recommendation 6 unresolved. Accordingly, the unimplemented recommendations will be
referred to the Assistant Secretary for Policy, Management and Budget for tracking of
implementation,    and the Park Service is requested to reconsider its response to
Recommendation 6 (see Appendix 4).

The Park Service said that it did not concur with Recommendation 6 because the
recommendation “implie[d] that the National Park Service has the authority to retain the
capital costs recovered.” The Park Service said that it would obtain a Solicitor’s opinion
regarding the retention and use of utility system capital cost reimbursements to settle the
“question of authority.” Although not incorporated into the recommendation, the discussion
of this issue (page 9) states that Park Service budget officials did not provide any regulations
to support their position that these funds could be retained. The report further notes that “to
resolve any ambiguity regarding the proper retention and use of utility reimbursements, we
believe that the Park Service should issue guidance, in coordination with the Solicitor’s
Office, to the parks regarding the retention of accumulated reimbursements of both
operational and capital investment costs and ensure that such guidance is in accordance with
applicable laws and regulations.” (Emphasis added.) We believe that the Park Service’s
proposed action, when completed, should partially satisfy the intent of the recommendation.
To fully implement the recommendation, the Service should request that the Solicitor’s
opinion also address the retention and use of utility system operational cost reimbursements.
In addition, the Service needs to issue guidance on the appropriate accounting treatment for
these reimbursements, particularly operational cost recoveries that are carried over from one
fiscal year to the next. Furthermore, if the Solicitor finds that the Park Service can retain and
use capital cost reimbursements, the Park Service will need to develop guidance on the



                                               10
recording and use of these cost recoveries. Accordingly, the Park Service is requested to
reconsider its response to this recommendation.

In accordance with the Departmental Manual (360 DM 5.3), please provide us with your
written comments to this report by May 15, 1998. The response should provide the
information requested in Appendix 4.

The legislation, as amended, creating the Office of Inspector General requires semiannual
reporting to the Congress on all audit reports issued, the monetary impact of audit findings
(Appendix l), actions taken to implement recommendations, and identification of each
significant recommendation on which corrective action has not been taken.

We appreciate the assistance of National Park Service personnel in the conduct of our audit.




                                            11
                                                         APPENDIX 1

             CLASSIFICATION OF MONETARY AMOUNTS


                                                   Potential Additional
           Findiw Area           Lost Revenues           Revenues

Recovery of Capital Investment        $4,785,124      $3 1,285,542
Recovery of Operational Costs          1.537.018

   Total                              $6.322.142      $3 1.285.542




                                 12
                                       RECOVERY        OF CAPITAL        INVESTMENT

                                                                          RECOVERABLE AMOUNT
    PARK OR RECREATION                   CAPITAL                               POTENTIAL
           AREA                        INVESTMENT          LOST           ADDITIONAL REVENUES           TOTAL

    Visited

    Grand Canyon National Park           $10,746,849        $2,053,823                 $7,188,467     $9,242,290
    Mesa Verde National Park               6,901,574           360,502                  2,262,096      2,622,598
    Lake Mead National
      Recreation Area                      2,402,825            76,089                    380,448        456,537
    Glacier National Park                  1526.462                  0                    870.083        870.083

          Total                          $21.577.710        $2.490.414                $10.701.094    $13,191.508

    Contacted

    Bryce Canyon National Park            $1,777,000                 0                          0               0
    Cuyahoga Valley National
w
      Recreation Area                      3,499,900                 0                           0              0
    Gateway National Recreation Area       2,892,OOO            $4,820                   $428,980       $433,800
    Golden Gate National
       Recreation Area                     6,513,973           202,563                  2,169,346      2,371,909
    Hawaii Volcanoes National Park         1,991,162            65,708                    591,375        657,083
    Independence National Park            17,089,100                 0                           0              0
    Kalaupapa National Historic Park       2,786,097                 0                           0              0
    Petrified Forest National Park         1,337,294            43,834                    223,625        267,459
    Sequoia & Kings Canyon
      National Park                       16,248,543           495,299                  5,029,206      5,524,505
    Yellowstone National Park              5,633,228                 0                  2,985,611      2,985,611
    Yosemite National Park                14.779.792         1.482.486                  9.156.305     10.638.791

          Total                          $74.548.089        $2.294.710                $20.584.448    $22.879.158

    TOTAL ALL AREAS                      %96.125,799        $4.785.124                $3 L285.542    $36.070.666
                                                                                       APPENDIX 3 .
                                                                                        Page 1 of3
                     United States Department                     of the Interior
                                          NATIONAL PARR SERVICE
                                               1849 C Stmet, N.W.
                                             Washington, D.C. 20240
INREPLYREFMr0:

       F4217(2612)
                                             fMR     2    U998

       Memorandum

       To:             Acting Inspector General




       Subject:       Draft Au/dit Report on Follow-up of Recommendations Concerning Utility
                      Rates Imposed by the National Park Service (Assignment No. C-IN-NPS-
                      001-97)

       This responds to the drafl audit report on utility rates that was issued by your office on
       February 12, 1998 and containing six recommendations for our consideration. We
       generally agree with the conclusions stated in the report. Our specific comments follow.

       Recommendation         1: “Revise Special Directive 83-2 to include specific guidelines for
       recovering capital   investments in utility systems that are identifiable to non-Governmental
       users and to allow    for the recovery of these investments through the utility rate process.
       Any exceptions to    full recovery of such capital investments should be properly authorized
       and documented.”

       Response: We concur in the recommendation. The Associate Director, Park Operations
       and Education (Concession Program), will revise Special Directive 83-2 to include
       specific guidelines for recovering capital investments in utility systems that are identifiable
       to non-Governmental users and to aIlow for the recovery of these investments through the
       utility rate process. The target date for implementation is October 1999.

       Recommendation 2: “Establish an oversight process to ensure that capital investments in
       utility systems and operational costs, which are identifiable to non-Governmental users,
       are fully recovered and that any exceptions to full recovery are properly authorized and
       documented.”

       Response: We concur in the recommendation. The Associate Director, Park Operations
       and Education (Concession Program), will establish an oversight process to ensure that
       capital investments in utility systems and operational costs which are identifiable to non-
       Governmental users are fully recovered and that any exception to full recovery are
       properly authorized and documented. The target date for implementation is
       October 1999.




                                                     14
                                                                             APPENDIX 3.
                                                                              Page 2 of 3




Recommendation 3: “Issue guidance for the recovery of operational costs of utility
systems. The guidance should include but not be limited to the various types of direct and
indirect park maintenance costs that are to be included in rate computations and
procedures for developing the rates.”

Response: We concur in the recommendation. The Associate Director, Park Operations
and Education, through the professional utility engineering stafFat the Field Operations
Technical Support Center (FOTSC) in Denver, will provide input to go into the Service’s
overall revision of the Special Directive 83-2. The directive will address procedures for
developing rates as well as various direct and indirect park maintenance costs that should
be included in rate computations relating to recovering operational costs of park-owned
utility systems, The target date for implementation is October 1999.

Recommendation 4: “Ensure that adequate training and/or guidance is provided to
personnel who are responsible for formulating utility rates.”

Response: We concur in the recommendation. As part of the revision of the Special
Directive 83-2, the Service will issue guidance to assist park and regional personnel who
are responsible for formulating utility rates. The Associate Director, Park Operations and
Education, through the professional utility engineering staff at the Field Operations
Technical Support Center (FOTSC) in Denver, will provide input on appropriate guidance
for park and regional personnel to formulate rates for the Service’s overall revision of the
Special Directive 83-2. The target date for implementation is October 1999.

Recommendation 5: “Ensure that park units which provide utility services to non-
Governmental users have adequate internal controls relating to the separation of duties for
the billing and collection functions and for the timely deposit of receipts.”

Response: We concur in the recommendation. The Associate Director, Administration
(Accounting Operations Center), will provide guidance to all parks regarding the proper
procedures for the handling of deposits and the methodologies to be used to ensure that all
deposits are made in a timely manner. The National Park Service will, through the
appropriate managers, ensure that separation of duties relative to the billing and collection
of finds is accomplished where possible, accounting for the individual situations in a park
and the available staffing levels. The target date for implementation is October 1999.




                                            15
                                                                             APPENDIX     3-
                                                                              Page 3 of 3




Recommendation 6: “Issue guidance to all park units on the procedures for retaining and
spending utility system cost reimbursements and ensure that such guidance is in
accordance with applicable laws and regulations.”

Response: We do not concur in the recommendation as it is stated. At the exit interview
on February 5, 1998, this recommendation was discussed at length. The recommendation
implies that the National Park Service has the authority to retain the capital costs
recovered. The draft audit report cites neither law nor regulation that would support this
position. Thus, the question of authority is not settled. We will ask for an opinion on this
matter from the Solicitor and respond accordingly. The responsible official for this action
is the Associate Director, Administration (Accounting Operations Center).

Thank you for providing us with the opportunity to respond to the draft audit report.

cc:    Assistant Secretary for Fish and Wildlife and Parks
       Director, Office of Financial Management




                                            16
                                                               APPENDIX 4 *

         STATUS OF AUDIT REPORT RECOMMENDATIONS

Finding/Recommendation
        Reference                 status              Action Reauired

     1,2,3,4,   and 5    Resolved; not        No further response to the
                         implemented          Office of Inspector General is
                                              required. The
                                              recommendations will be
                                              referred to the Assistant
                                              Secretary for Policy,
                                              Management and Budget for
                                              tracking of implementation.
                                              However, in accordance with
                                              the Departmental Manual (361
                                              DM 1.4), a detailed action
                                              plan, which includes quarterly
                                              milestones for completing
                                              implementation of all of these
                                              recommendations, should be
                                              provided to Policy,
                                              Management and Budget.

                         Unresolved.          Reconsider the
                                              recommendation, and provide a
                                              plan identifying actions to be
                                              taken, including target dates
                                              and titles of officials
                                              responsible for
                                              implementation.




                                         17
                  ILLEGAL OR WASTEFUL ACTIVITIES
                      SHOULD BE REPORTED TO
               THE OFFICE OF INSPECTOR GENERAL BY:


Sending written   documents    to:                                    CalIiug:



                      Within the Continental United States

U.S. Department    of the Interior                              Our 24-hour
Office of Inspector General                                     Telephone HOTLINE
1849 C Street, N.W.                                             l-800-424-5081 or
Mail Stop 5341                                                  (202) 208-5300
Washington, D.C. 20240


                                                                TDD for hearing impaired
                                                                (202) 208-2420 or
                                                                l-800-354-0996


                     Outside the Continental United States
                                                            .

                                      Caribbean Reeion

U.S. Department    of the Interior                              (703) 2359221
Office of Inspector General
Eastern Division - Investigations
1550 Wilson Boulevard
Suite 410
Arlington, Virginia 22209


                                     North Pacific Reeion

U.S. Department    of the Interior                              (700) 550-7428 or
Office of Inspector General                                     COMM g-011-671-472-7279
North Pacific Region
238 Archbishop F.C. Flares Street
Suite 807, PDN Building
Agana, Guam 96910
    Toll Free Numbers:
     l-800-424-5081
.
.    TDD l-800-354-0996
:
:
:   FISKommercial    Numbers:
.     (202) 208-5300
     TDD (202) 208-2420

     HOTLINE
    1849 C Street, NW.
    Mail stop 5341
